      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                       Washington, D.C. 20201




August 25, 2010

TO:           Yvette Sanchez Fuentes
              Director, Office of Head Start
              Administration for Children and Families


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Inyo Mono Advocates for Community Action’s Compliance With
              Health and Safety Regulations for Head Start Programs (A-09-09-00089)


Attached, for your information, is an advance copy of our final report on Inyo Mono Advocates
for Community Action’s (the Grantee) compliance with Head Start health and safety
regulations. We will issue this report to the Grantee within 5 business days. The Administration
for Children and Families, Office of Head Start, requested this review.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at (415) 437-8360
or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number A-09-09-00089.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Office of Inspector General

                                                                             Office of Audit Services, Region IX
                                                                             90 – 7th Street, Suite 3-650
                                                                             San Francisco, CA 94103



August 30, 2010

Report Number: A-09-09-00089

Mr. Daniel Steinhagen
Executive Director
Inyo Mono Advocates for Community Action
P.O. Box 845
Bishop, CA 93515

Dear Mr. Steinhagen:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Inyo Mono Advocates for Community Action’s
Compliance With Health and Safety Regulations for Head Start Programs. We will forward a
copy of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, the final report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or contact Jim Kenny, Audit Manager, at (415) 437-8370 or through email at
James.Kenny@oig.hhs.gov. Please refer to report number A-09-09-00089 in all correspondence.

                                               Sincerely,



                                               /Lori A. Ahlstrand/
                                               Regional Inspector General
                                                 for Audit Services


Enclosure
Page 2 – Mr. Daniel Steinhagen


Direct Reply to HHS Action Official:

Ms. Jan Len
Regional Program Manager
Administration for Children and Families
Office of Head Start
90 Seventh Street, Ninth Floor
San Francisco, CA 94103
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF INYO MONO ADVOCATES
    FOR COMMUNITY ACTION’S
 COMPLIANCE WITH HEALTH AND
    SAFETY REGULATIONS FOR
     HEAD START PROGRAMS




                      Daniel R. Levinson
                       Inspector General

                         August 2010
                        A-09-09-00089
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families, Office of Head Start (OHS), administers the Head Start and Early Head Start programs.
We refer collectively to both programs as the Head Start program. In fiscal year (FY) 2009,
Congress appropriated $7.1 billion to fund the program’s regular operations. The American
Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), provides an additional
$2.1 billion for the Head Start program during FYs 2009 and 2010.

Inyo Mono Advocates for Community Action (the Grantee) provides Head Start services to
children aged 3 to 5 and their families through a comprehensive preschool program at five
facilities in Inyo and Mono Counties, California. For program year January 1 through
December 31, 2009, OHS awarded $887,560 in Federal Head Start funds to the Grantee to
provide services to 82 children. On June 18, 2009, the Grantee also received $45,976 in
Recovery Act funding.

OBJECTIVE

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements for ensuring the health and safety of children in its care.

SUMMARY OF FINDINGS

The Grantee generally complied with Federal and State requirements for ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
requirements in the following areas:

   •   The Grantee did not obtain criminal record checks for 4 of its 35 employees. The
       Grantee obtained criminal record checks for the 31 remaining employees. However, the
       Grantee did not obtain criminal record checks on six employees until after they were
       hired. In addition, the files on four other employees did not contain the required
       documentation on criminal record clearances or a signed statement regarding criminal
       history.

   •   The Grantee’s four childcare facilities that we reviewed did not meet all Federal Head
       Start and State requirements for protecting children from unsafe materials and equipment.
       In addition, one of these facilities did not always provide a secure environment for the
       children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to consistently comply with these
requirements jeopardized the health and safety of children in its care.




                                                i
RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee stated that four employees were not
required to have criminal background clearances because they were not Head Start employees
and were not compensated with Head Start direct cost funds. The Grantee acknowledged that the
four employees’ salaries were supported in part by Head Start through the Grantee’s indirect cost
pool.

The Grantee agreed that six employees did not receive criminal background clearances before
employment but maintained that State regulations and Federal law had different timelines for this
requirement. Nevertheless, the Grantee stated that it had established a procedure to ensure that
all Head Start employees receive criminal background checks before employment.

The Grantee agreed with the remaining findings and described actions taken to address the
deficiencies that we identified. The Grantee’s comments are included in their entirety as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the Grantee’s comments caused us to revise our finding regarding the four employees
who had not received criminal record checks. Because these employees’ salaries were paid in
part by Head Start through the Grantee’s indirect cost pool, the Grantee should have obtained
criminal record checks.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Federal Head Start Program ...............................................................................1
              Federal and State Requirements for Head Start Grantees ..................................1
              Inyo Mono Advocates for Community Action. .................................................1
              Office of Inspector General Audits ....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          CRIMINAL RECORD CHECKS ..................................................................................3
               Federal and State Requirements ........................................................................3
               Grantee’s Compliance With Federal and State Requirements ...........................4

          MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY................5
              Federal and State Requirements ........................................................................5
              Grantee’s Compliance With Federal and State Requirements ...........................6

          RECOMMENDATIONS ...............................................................................................7

          GRANTEE COMMENTS .............................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................8

APPENDIXES

          A: LACK OF COMPLIANCE WITH MATERIAL AND EQUIPMENT SAFETY
              AND FACILITY SECURITY REQUIREMENTS

          B: GRANTEE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Federal Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major program objectives include promoting school readiness
and enhancing the social and cognitive development of low-income children by providing health,
educational, nutritional, and social services. In 1994, the Head Start program was expanded to
establish Early Head Start, which serves children from birth to 3 years of age. We refer
collectively to both programs as the Head Start program.

Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Head Start (OHS), administers the Head Start program. In fiscal year
(FY) 2009, Congress appropriated $7.1 billion to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provides an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds are intended for activities such as expanding enrollment, funding cost-of-living wage
increases for grantees, upgrading centers and classrooms, and bolstering training and technical
assistance.

Federal and State Requirements for Head Start Grantees

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), Head Start grantees must
provide for the maintenance, repair, safety, and security of all Head Start facilities. These
requirements also specify that facilities used by Head Start grantees for regularly scheduled,
center-based activities must comply with State and local licensing requirements. Pursuant to
45 CFR § 1306.30(c), if State and local licensing standards are less stringent than the Head Start
requirements or if no State licensing standards are applicable, grantees must ensure that their
facilities comply with the Head Start Program Performance Standards related to health and
safety.

In California, childcare centers must comply with Title 22, division 12, chapter 1, of the
California Code of Regulations (CCR). Pursuant to CCR § 101156(a), unless a childcare
arrangement is exempt from licensure as specified in § 101158, no adult, general partners of a
partnership, controlling partners in a limited liability corporation, corporation, county, city,
public agency, or other governmental entity may operate, establish, manage, conduct, or provide
care and supervision without a valid license from the Department of Social Services (the
Department).

Inyo Mono Advocates for Community Action

Inyo Mono Advocates for Community Action (the Grantee), a private, nonprofit community
action agency, provides services to address the needs of low-income residents of Inyo and Mono

                                                1
Counties, California. The Grantee provides Head Start services to children aged 3 to 5 and their
families through a comprehensive preschool program at five State-licensed facilities: Clarke
Street, Little Promises, Lone Pine, Lee Vining, and Mammoth Lakes. The Grantee has received
Head Start funding since 1991.

For program year January 1 through December 31, 2009, OHS awarded $887,560 in Federal
Head Start funds to the Grantee to provide services to 82 children. On June 18, 2009, the
Grantee also received $45,976 in Recovery Act funding.

Office of Inspector General Audits

This audit is one of a series of audits that address the health and safety of children who attend
Head Start programs. We are conducting these audits in response to the $2.1 billion in Recovery
Act funds appropriated for the Head Start program in FYs 2009 and 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Grantee complied with applicable Federal and State
requirements for ensuring the health and safety of children in its care.

Scope

Our review covered the Grantee’s employee records and four of its five facilities as of June
2009. 1 To gain an understanding of the Grantee’s operations, we conducted a limited review of
the Grantee’s internal controls as they related to our audit objective.

We performed our fieldwork from June 2 through June 11, 2009, at the Grantee’s administrative
office in Bishop, California, and at four of its childcare facilities in Inyo and Mono Counties,
California.

Methodology

To accomplish our objective, we:

      •   selected the Grantee based on prior risk analyses and discussions with ACF officials;

      •   reviewed Federal and State laws, regulations, and policies related to Federal grant awards
          and the Head Start program;

      •   interviewed the Grantee’s executive director and Head Start director;

      •   reviewed the Grantee’s Head Start grant applications and current grant award documents;

1
    We did not visit Mammoth Lakes.

                                                  2
    •   reviewed the Grantee’s files on all 35 current Head Start employees; 2

    •   reviewed the Grantee’s licenses and documentation of fire inspections;

    •   visited four of the Grantee’s childcare facilities; and

    •   discussed our preliminary findings with Grantee and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The Grantee generally complied with Federal and State requirements for ensuring the health and
safety of children in its care. However, the Grantee did not fully comply with Federal and State
requirements in the following areas:

    •   The Grantee did not obtain criminal record checks for 4 of its 35 employees. The
        Grantee obtained criminal record checks for the 31 remaining employees. However, the
        Grantee did not obtain criminal record checks on six employees until after they were
        hired. In addition, the files on four other employees did not contain the required
        documentation on criminal record clearances or a signed statement regarding criminal
        history.

    •   The Grantee’s four childcare facilities that we reviewed did not meet all Federal Head
        Start and State requirements for protecting children from unsafe materials and equipment.
        In addition, one of these facilities did not always provide a secure environment for the
        children in its care.

These deficiencies occurred because the Grantee did not have adequate procedures or did not
consistently follow its existing procedures to ensure that it complied with Federal and State
health and safety requirements. The Grantee’s failure to consistently comply with these
requirements jeopardized the health and safety of children in its care.

CRIMINAL RECORD CHECKS

Federal and State Requirements

Pursuant to section 648A(g) of the Head Start Act (42 U.S.C. § 9843A(g)), a Head Start grantee
may not hire an individual on a permanent or nonpermanent basis until it obtains (1) a State,

2
  Of the total, 29 employees were partially or fully funded by the Head Start grant award, and 6 employees were paid
through the indirect cost pool.

                                                         3
tribal, or Federal criminal record check covering all jurisdictions where the grantee provides
Head Start services to children; (2) a State, tribal, or Federal criminal record check as required by
the law of the jurisdiction where the grantee provides Head Start services; or (3) a criminal
record check as otherwise required by Federal law.

Section 101170(a) of the CCR states that the Department must conduct a criminal record review
of all persons specified in the Health and Safety Code, section 1596.871(b), including the
applicant; adults responsible for administration or direct supervision of staff; any person, other
than a child, residing in the facility; any person who provides care and supervision to children;
and any staff person, volunteer, or employee who has contact with children. Section 101170(e)
of the CCR states that all individuals subject to a criminal record review must, before working,
residing, or volunteering in a licensed facility, obtain a California clearance or a criminal record
exemption as required by the Department.

Section 101170(d) of the CCR states that any individual subject to a criminal record review must
sign a Criminal Record Statement declaring whether he or she has been convicted of a crime,
other than a minor traffic violation, regardless of whether the individual was granted a pardon for
the conviction, the individual received expungement, or the individual’s record was sealed as a
result of a court order.

Section 101217(a) of the CCR states that the personnel record for each employee must contain,
among other things, (1) documentation of a criminal record clearance or a criminal record
exemption as required by CCR § 101170(e) and (2) a signed statement regarding the employee’s
criminal record history as required by CCR § 101170(d).

Grantee’s Compliance With Federal and State Requirements

The Grantee did not obtain criminal record checks for four of its employees (the controller, the
fiscal assistant, the accounts payable clerk, and the administrative services manager). The office
for these employees was located approximately 700 feet from the nearest childcare facility.

Although the Grantee obtained criminal record checks on the 31 remaining employees, the
Grantee did not obtain the checks on 6 employees until after they were hired. In addition, the
files on four other employees did not contain all required documentation. Specifically, the files
on three employees (the executive director, one lead teacher, and one teacher) lacked
documentation of criminal record clearances. The file on the other employee (a teacher) did not
contain a signed statement regarding the employee’s criminal history. We confirmed that the
Grantee had obtained the required criminal record checks for the four employees.

These deficiencies occurred because the Grantee did not have adequate procedures to ensure that
it complied with Federal and State requirements. By not ensuring that it complied with all
employment requirements for employees who supervised or had routine unsupervised contact
with children, the Grantee potentially jeopardized the safety of children in its care.




                                                  4
MATERIAL AND EQUIPMENT SAFETY AND FACILITY SECURITY

Federal and State Requirements

Pursuant to Federal Head Start requirements (45 CFR § 1304.53(a)(7)), grantees must provide
for the maintenance, repair, safety, and security of all Head Start facilities, materials, and
equipment. Grantees must ensure that indoor and outdoor premises are cleaned daily and kept
free of undesirable and hazardous materials and conditions (45 CFR § 1304.53(a)(10)(viii)).

Pursuant to 45 CFR § 1306.30(c), grantees must ensure that Head Start facilities comply with
any State and local licensing requirements. If these licensing standards are less comprehensive
or less stringent than Head Start requirements or if no State or local licensing standards are
applicable, grantees must ensure that their facilities comply with the Head Start Program
Performance Standards related to health and safety.

The CCR specifies that childcare centers must protect children from unsafe materials and
equipment by, among other actions:

   •   maintaining the center in good repair at all times (CCR § 101238(a));

   •   maintaining furniture and equipment in good condition and free of sharp, loose, or
       pointed parts (CCR § 101239(n));

   •   storing combustibles, cleaning equipment, and cleaning agents in a locked cabinet
       separate from food or in a location inaccessible to children (CCR § 101238.4(d));

   •   storing disinfectants, cleaning solutions, poisons, and other items that could pose a
       danger to children in a location inaccessible to children (CCR § 101238(g));

   •   ensuring that floors of all rooms have surfaces that are safe and clean
       (CCR § 101238.3(b));

   •   taking measures to keep the center free of flies, other insects, and rodents
       (CCR § 101238(a)(1)); and

   •   ensuring that any construction or equipment that could pose a hazard in an outdoor
       activity area is inaccessible to children (CCR § 101238.2(h)).

Section 101238.2(g) of the CCR requires that the playground be enclosed by a fence at least
4 feet high to protect children and to keep them in the outdoor activity area. The CCR states that
the fence should prevent children from leaving the outdoor activity area unnoticed but not itself
present a hazard.




                                                 5
Grantee’s Compliance With Federal and State Requirements

The Grantee’s four childcare facilities that we reviewed did not meet all Federal Head Start and
State health and safety requirements for protecting children from unsafe materials and
equipment.

In addition, one of these facilities did not always provide a secure environment for the children
in its care. We noted the following deficiencies at the Grantee’s facilities, and we discussed the
deficiencies with the lead teachers on duty during our visits. In some instances, the lead teachers
took immediate steps to address our concerns.

Clarke Street (State licensed, visited June 2 and June 3, 2009)

   •   The floor of the boys’ bathroom was wet, presenting a slipping hazard.

   •   A door that led to the kitchen was unlocked, allowing children access to a stove and other
       items that could pose a danger (Appendix A, Photograph 1).

Little Promises (State licensed, visited June 2 and June 3, 2009)

   •   Cleaning supplies in a classroom were stored in an unlocked cabinet within children’s
       reach (Appendix A, Photograph 2).

   •   Two wooden landscaping dividers on the playground protruded approximately 2 inches
       from the ground, presenting a tripping hazard (Appendix A, Photograph 3).

   •   The inside of the door of an unlocked storage shed on the playground had a yellowjacket
       hive (Appendix A, Photograph 4).

Lone Pine (State licensed, visited June 3, 2009)

   •   Disinfectant sprays were stored on a bathroom shelf within children’s reach.

   •   Classroom ceiling tiles were sagging (Appendix A, Photograph 5).

   •   A window had a broken screen (Appendix A, Photograph 6).

   •   An external air-conditioning unit had a leaking intake hose and a missing drainage
       system, which created a muddy area on the playground.

   •   The door of an unsupervised office was unlocked, allowing children access to a tall
       bookshelf and other items that could pose a danger.




                                                   6
Lee Vining (State licensed, visited June 4, 2009)

   •   A classroom drawer accessible to children had a broken safety lock and contained
       potentially dangerous items, such as WD-40 spray, hammers, screwdrivers, and a
       C-clamp (Appendix A, Photograph 7).

   •   The wooden fence surrounding the playground had loose boards and protruding nails
       (Appendix A, Photograph 8).

   •   Doors and a gate that led to street parking off the playground were unlocked
       (Appendix A, Photograph 9). The doors and gate were within children’s reach.

   •   The doors that led to the kitchen were unlocked, allowing children access to a stove and
       other items that could pose a danger.

These deficiencies occurred because the Grantee did not consistently follow its existing
procedures to ensure that it complied with Federal and State health and safety requirements. By
not ensuring that all facilities were kept free from unsafe materials and equipment and that all
facilities were secure, the Grantee jeopardized the health and safety of children in its care.

RECOMMENDATIONS

We recommend that the Grantee strengthen and consistently follow its existing procedures to
ensure that:

   •   criminal record checks are obtained before hiring employees and all employee files
       contain (1) documentation of criminal record clearances or exemptions and
       (2) employee-signed statements regarding criminal history and

   •   all unsafe materials and equipment are stored in locked areas out of the reach of children,
       other unsafe conditions are addressed, and all facilities are secure.

GRANTEE COMMENTS

In written comments on our draft report, the Grantee stated that four employees were not
required to have criminal background clearances because they were not Head Start employees
and were not compensated with Head Start direct cost funds. The Grantee acknowledged that the
four employees’ salaries were supported in part by Head Start through the Grantee’s indirect cost
pool.

The Grantee agreed that six employees did not receive criminal background clearances before
employment but maintained that State regulations and Federal law had different timelines for this
requirement. Nevertheless, the Grantee stated that it had established a procedure to ensure that
all Head Start employees receive criminal background checks before employment. The Grantee
added that none of its employees had worked in any preschool site until clearance was received.


                                                7
In addition, the Grantee agreed that the files on four employees did not contain the required
documentation of criminal record clearances or a signed statement regarding criminal history.
The Grantee stated that it had established procedures to ensure that employee files contain the
required documentation.

Finally, the Grantee concurred with our findings regarding material and equipment safety and
facility security and described actions taken to address the deficiencies that we identified.

The Grantee’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the Grantee’s comments caused us to revise our finding regarding the four employees
who had not received criminal record checks. Because these employees’ salaries were paid in
part by Head Start through the Grantee’s indirect cost pool, the Grantee should have obtained
criminal record checks.




                                                8
APPENDIXES
                                                                 Page 1 of 5


      APPENDIX A: LACK OF COMPLIANCE WITH
       MATERIAL AND EQUIPMENT SAFETY AND
        FACILITY SECURITY REQUIREMENTS




Photograph 1 – Taken at Clarke Street on 6/2/09 showing an
open door leading to the kitchen.




Photograph 2 – Taken at Little Promises on 6/3/09 showing
a classroom’s cleaning supplies stored in an unlocked cabinet.
                                                               Page 2 of 5




Photograph 3 – Taken at Little Promises on 6/3/09 showing
one of two landscaping dividers on the playground protruding
approximately 2 inches from the ground.




Photograph 4 – Taken at Little Promises on 6/3/09 showing a
yellowjacket hive on the inside of the door of an unlocked
storage shed on the playground.
                                                              Page 3 of 5




Photograph 5 – Taken at Lone Pine on 6/3/09 showing sagging
ceiling tiles in a classroom.




Photograph 6 – Taken at Lone Pine on 6/3/09 showing a
broken window screen.
                                                             Page 4 of 5




Photograph 7 – Taken at Lee Vining on 6/4/09 showing WD-40
spray, hammers, screwdrivers, and a C-clamp in a classroom
drawer with a broken safety lock.




Photograph 8 – Taken at Lee Vining on 6/4/09 showing loose
boards and protruding nails on the playground fence.
                                                                Page 5 of 5




Photograph 9 – Taken at Lee Vining on 6/4/09 showing an
unlocked playground gate that led to street parking. The gate
was within children’s reach.
                                                                                                                          Page 1 0[4


                                         APPENDIX B: GRANTEE COMMENTS 




     INYO                                                       p eople Helping People
     MONO
     ADVOCATES for
     COMMUNITY
     ACTION, Inc.


                                    July 12, 2010
        Administration
            Personnel
    Emergency Services
                                    Department Of Health and Human Services
              Housing               Office of Inspector General
            224 S. Main 81.
              P.o. Box 845
                                    Office of Audit Services, Region IX
         Bishop, CA 93515           90- 7'h Street, Suite 3-650
           (760) 873-8557
            800·541 -1822
                                    San Francisco, CA 94103
       Fax (760) 873-8182
e-mail: imaca3@qnel.com
                                    Subject: Report Number: A-09-09-00089

       Child Development
         & Family Services          Attached is the Inyo Mono Advocates for Community Action, Inc. written
           Head Start-State         response to the Jun e 2010 draft report A-090-09-0089 received on June 17,
                    Preschool
(With sites in Bishop, Lone Pine,   2010.
     Mammoth, and Lee Vining)
      Administrative Office
         21S·A So. Main SI.         I, along with the IMACA Board of Directors, want to acknowledge the work done
           Bishop, CA 93514
           (760) 873·3001
                                    by the group of auditors who were on site from June 2 - 11, 2009 to review our
       Fax (760) 872-5570           Head Start program. Serving a rural and somewhat isolated commun ity, we
                                    consider reviews as learning opportunities in our effort to continue to improve
Community Connections               the services that we provide to child ren and families in the Eastern Sierra region
          for Children
         p.0. Box 8571
                                    of California,
Mammoth Lakes, CA 93546
            (760) 934-3343
            800-317-4600            The timeliness of the release of this report was disappointing. At the time of the
       Fax (760) 934-2075           review we were told to expect a draft report with in 30 days.

REACH I CONNECTIONS                 Sincerely;
       180 Clarke Street



                                      ~ C{~~ C0f~L
      Bishop, CA 93514




                                                                     r
         (760) B73-3021
    Fax (760) 873-6724


           Glass Mountain
            Apartments              Daniel Steinhagen
           3554 Main SI             Executive Director
 Mammoth Lakes, CA 93M6
            (760) 924-3888


       Valley Apartments
         156 E. Clarke St
        Bishop, CA 93514
           (760) 873-8557




                                                 Sel"llill(j /n!JO, MOllO I~ II/pin e Cuulllics Since WS /
                                                                       (( !t( JI / !. iJr)(l("o .J w/
                                                                                                            Page 2 of 4




Finding #1
The Grantee did not obtain criminal record checks for 4 of its 35 employees. The Grantee obtained
criminal record checks for 31 of the remaining employees. However, the Grantee did not obtain
criminal record checks on 6 employees until after they were hired. In addition, the files on four other
employees did not contain the required documentation on criminal record clearances or a signed
statement regarding criminal history.


    •	   In respect to the part of this finding that we did not obtain criminal record checks for 4 of its
         35 employees:

Four IMACA employees (the controller, the fiscal assistant, the accounts payable clerk and the administrative
services manager) do not have a criminal background clearance. These individuals are not Head Start
employees. None of these IMACA employees are compensated with Head Start direct cost funds. Direct costs
generally include: "salaries and wages, fringe benefits, travel of (direct labor) employees, materials, supplies
and equipment purchased directly for use on a specific grant or contract and communication costs such as long
distance telephone calls identifiable with a specific award of activity." None of these 4 IMACA employees are
included on the grantee's Head Start organizational chart and none of these IMACA employees are included in
the grantee's Head Start personnel budget. It is true that their positions are supported in part by Head Start
indirect funds - "funds that represent the expenses of doing business that are not readily identified with a
particular grant, contract, project or activity, but are necessary for the general operation of the organization
and the conduct of activities it performs." It should be noted that a similar discussion about employees and
direct and indirect costs came up during our Triennial Head Start Review in October 2009. This discussion
centered on performance evaluations. During this review the controller's personnel file was pulled for review.
It was then decided that, since the controller was not compensated with any Head Start direct funds, she was
not considered a Head Start employee and her personnel file was not reviewed.


    •	   In respect to the part of this finding that 6 employees did not have a criminal clearance until
         after they were hired:

We were in compliance with Section 101170(e) ofthe CCR that states "all individuals subject to
criminal record review must, before working, residing or volunteering in a licensed facility, obtain a
California clearance or criminal record exemptions as required by the Department." No employee
has worked in any of our preschool sites until a clearance was received from licensing and DOJ. We
do acknowledge that the wording in the Head Start Act is more restrictive in stating that "a grantee
may not hire an individual on a permanent or nonpermanent basis until it receives a State, tribal or
Federal criminal check covering all jurisdictions where the grantee provides Head Start services to
children." It is clear that Title 22 and the Head Start Act have two different timelines for requiring the
criminal background clearance. In order to insure that we are meeting both of these requirements
we now have a procedure in place that requires all Head Start employees to complete a criminal
background check prior to employment. We request that it be noted that this area of the finding has
been corrected.
                                                                                                      Page 3 of 4




   • 	 In respect to the part of the finding that indicated that the files of 4 employees did not contain
       the required documentation on criminal record clearance or a signed statement regarding
       criminal history:

The auditors were shown Facility Personnel Roster reports from the State of California, Community
Care Licensing, showing the employee name, licensing 10# and that they had a criminal background
clearance. It is true that this information was not in each individual file. We now have procedures in
place, which includes a document check list in the front of each employee's personnel file that tracks
each document in the file. The auditors were shown the IMACA employment application, which has a
yes/no question asking the potential employee if they have ever been convicted of a crime. This
application is signed by the potential employee and is placed in each employee personnel file. We
now have a procedure in place to insure that in addition to the self certification on the employment
application, each employee will have on file in their personnel file a signed Lic# 508 "Criminal Record
Statement." We request that it be noted that this area of the finding has been corrected.




Finding #2
The Grantee's four childcare facilities that were reviewed did not meet all Federal Head Start and
State requirements for protecting children from unsafe materials and equipment. In addition, one of
the facilities did not always provide a secure environment for children in its care.

We concur with these findings. All ofthese findings have been addressed and corrected. As noted in
the minutes of the exit interview with the auditors on 6/11/09 the following items were corrected
when the auditors were on site.

   • 	 Clarke St. 

           a Water on bathroom floor was mopped. 

           a   Door leading into kitchen from back porch was closed and sign posted to keep 

               closed/no children allowed in kitchen.
   • 	 Little Promises 

            a Cleaning supply closet was locked. 

           a   Wasp hive on shed door was removed. 

   • 	 Lone Pine 

          a Window screen was repaired. 

           a   Disinfectant sprays were moved to a location out of children's reach. 

   • 	 Lee Vining
           a Drawer with potentially dangerous items was secured with new lock.
           a   A barrier was placed to prevent children from accessing kitchen from classroom.
           a   Loose boards and protruding nails on fence were repaired.
                                                                                                    Page 4 of 4




The remaining concerns have been addressed and corrected:

Lone Pine

   1. 	 Leaking air-conditioning unit has been repaired.
   2. 	 Barrier in place to prevent children from accessing office area.
   3. 	 Ceiling tiles checked and repaired as needed.

Little Promises

   1. 	 Little Promises moved to a new location in August of 2009. There were no health or safety
       concerns identified and a license for the new location was issued.

Lee Vining

   1. 	 Child proof closure installed on gate in play yard



It should be noted that in the year since this review was conducted our program has had both
Community Care Licensing and Head Start announced and unannounced reviews at the preschool
sites. There were no findings in the areas of unsafe materials, equipment or safe environments. The
program now has a procedure in place to ensure routine monitoring of sites for areas of potential
hazards including a procedure for filling out and tracking maintenance requests. We request that it
be noted that this finding has been corrected.
